<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                        WEDNESDAY, MAY 15, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Udall, and Alexander.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. DANIEL B. PONEMAN, ACTING SECRETARY


             opening statement of senator dianne feinstein


    Senator Feinstein. Good afternoon, ladies and gentlemen, 
and welcome to the Energy and Water Subcommittee's budget 
hearing on the Department of Energy's (DOE) fiscal year 2014 
budget request.
    DOE has requested $28.415 billion for fiscal year 2014. 
That's an increase of $1.388 billion, or 5 percent, from fiscal 
year 2013, which is pretty good in this day and age. 
Approximately $304 million, or 22 percent, of it is for the 
National Nuclear Security Administration's (NNSA) nuclear 
weapons nonproliferation and naval reactor programs. This is a 
3-percent increase.
    This subcommittee has already explored NNSA's budget 
request 2 weeks ago, Mr. Poneman. So the focus of this hearing 
will be on energy and environmental cleanup programs. Similar 
to last year's request, the remainder of the Department's 
proposed increase is largely for energy efficiency and 
renewable projects, energy research and the Advanced Research 
Projects Agency for Energy (APRA-E).
    I'd like to highlight just the three largest increases in 
the budget. The single largest increase would be the Office of 
Energy Efficiency and Renewable Energy, which would see an 
increase of $995 million, or 55 percent. I must say I haven't 
seen that kind of increase in any other budget. It's amazing.
    The budget request includes a new initiative, called Race 
to the Top, for energy efficiency and grid modernization. The 
budget proposes one-time funding of $200 million for 
competitive grants to States, tribes, and local governments to 
help increase energy efficiency and modernize the grid. 
However, this subcommittee has received very little detailed 
information about the initiative. So we look forward to your 
justification of the request.
    The second largest increase would see an increase of $277 
million, or 5 percent. The science budget continues to 
prioritize programs exploring materials research, advanced 
computing, and biological research. So we appreciate the 
Department's clarity on these projects.
    I want to highlight two major concerns with the Office of 
Science budget. The first is the exascale computing. The 
Consolidated Appropriations Act of 2012 directed the Department 
to submit a strategic plan on exascale computing by February 
10, 2012. More than a year later, we do not yet have that plan.
    Without a plan, we can't evaluate how investments in the 
fiscal year 2014 budget are being used to maintain leadership 
in advanced computing over the next 10 years. So I would ask 
that you provide this committee an exascale's strategic plan 
without further delay.
    The second major issue involved International Thermonuclear 
Experimental Reactor (ITER), an experimental fusion reactor 
being built in France. The budget request provides $225 million 
for ITER, making it the largest project in the Office of 
Science budget. My understanding is that this will help the 
United States meet its obligations; however, the contribution 
for the construction of the reactor is expected to be around $3 
billion. That's $800 million more than the latest high end of 
the cost range.
    I just don't know how we continue to do this. Construction 
is 2 years behind schedule, and the reactor won't be operable 
until at least 2023. Each year of sequestration is expected to 
cause an additional 1-year delay and increase costs by as much 
as $200 million.
    Last year, this subcommittee directed the Department to 
provide a project plan for ITER, with funding needs for each 
fiscal year for the duration of the entire construction period. 
And guess what? The Department has failed to prepare the 
project baseline. Since Congress can't evaluate the full cost 
of this project without a project baseline, I ask the 
Department once again to submit one as expeditiously as 
possible.
    I would appreciate it if you would comment on both those 
items when you speak.
    In addition, increased funding for ITER has come at the 
expense of a domestic program, with a proposed shutdown of the 
Massachusetts Institute of Technology (MIT) reactor, short 
operating times for two fusion facilities, and significantly 
less research dollars. I'd like to hear your thoughts on ITER 
and whether it's worth it, given the costs and the impact on 
the domestic program and other Office of Science priorities.
    The third largest increase in your budget is ARPA-E, which 
would see an increase of $114 million, or 43 percent. That 
currently funds 285 high-risk energy tech projects. The budget 
request would provide funding for an additional 100 projects.
    An early indicator of success has been that 17 projects, 
which received $70 million from ARPA-E, have now secured more 
than $450 million in outside private capital investment to 
develop these technologies. In addition, 12 new companies have 
been formed to bring new technologies to the market. However, 
given the high-risk nature of the work, not all of them are 
successful.
    I think it's an indicator of good project management that 
ARPA-E has terminated 14 projects that did not meet performance 
milestones or had management problems, and returned those funds 
to the Treasury. Thank you for doing that. I'd certainly 
encourage that to continue.
    While renewable energy, ARPA-E, and the Office of Science 
saw increases in the budget, there are two energy programs that 
were cut. The Office of Fossil Energy would see a decrease of 
21 percent, or $113 million. The single largest cuts in Fossil 
Energy come from zeroing out the fuel cells subprogram and 
reducing carbon storage activities.
    The Office of Nuclear Energy would see a cut of $129 
million, or 15 percent, and major cuts in Nuclear Energy come 
from zeroing out the Next Generation Nuclear Plant project and 
shifting funding responsibility for maintaining plutonium 238 
production facilities to the National Aeronautic and Space 
Administration. Now, as I understand it, that's the only 
customer for that particular isotope.
    Well, we thank you, Mr. Poneman, the Acting Secretary of 
Energy, for being here. I think it's fair to say we view you as 
capable, very capable. And so we look forward to your solving 
all these problems in the 15-minutes' time that you explain to 
us, that you have.
    And we have written testimony from your Department's 
inspector general, and that testimony will be made part of the 
record.
    [The statement follows:]
               Prepared Statement of Gregory H. Friedman
    Madam Chairwoman and members of the subcommittee, pursuant to your 
May 9, 2013, request, I am providing information relating to today's 
hearing on the Department of Energy's fiscal year 2014 budget. 
Specifically, you requested information on the most significant 
management challenges facing the Department, as identified by the 
Office of Inspector General.
    The Department of Energy is a multi-faceted agency responsible for 
executing some of the Nation's most complex and technologically 
advanced missions. These missions include cutting edge work in basic 
and applied science, clean energy innovation, energy efficiency and 
conservation, environmental cleanup, medical applications, nuclear 
weapons stewardship, and efforts to enhance national security. To 
execute this diverse portfolio, the Department's workforce includes 
approximately 15,000 Federal employees and nearly 100,000 contractor 
personnel. The Department's physical asset base is currently valued at 
over $180 billion.
    With this extensive mission as the driver, the Office of Inspector 
General annually identifies what it considers to be the most 
significant management challenges facing the Department. Based on the 
results of our body of work, these are the issues that we believe 
require priority attention of the Department's senior leadership. The 
current list of management challenges includes:
  --Contract and Financial Assistance Award Management;
  --Cyber Security;
  --Energy Supply;
  --Environmental Cleanup;
  --Human Capital Management;
  --Nuclear Waste Disposal;
  --Safeguards and Security; and
  --Stockpile Stewardship.
    We also develop a ``watch list'' consisting of issues that warrant 
special attention by Department officials. The watch list includes 
Infrastructure Modernization, the Loan Guarantee Program, and Worker 
and Community Safety.
    Additionally, in our view, current Federal budgetary concerns 
dictate that making operations more efficient and less costly is the 
preeminent challenge facing the Department. As a result, beginning in 
fiscal year 2012, we identified Operational Efficiency and Cost Savings 
as a leading challenge facing the Department. In this context, we 
developed a series of operational efficiency and cost reduction 
initiatives for management's consideration. These topics include:
  --Apply a strategic planning discipline to the Department's entire 
        science and technology portfolio, which, in essence, extends 
        the reach of the Quadrennial Technology Review published in 
        September 2011;
  --Eliminate National Nuclear Security Administration functions that 
        duplicate or are redundant to existing Department of Energy 
        functions;
  --Establish an independent commission (patterned after the Department 
        of Defense Base Realignment and Closure Commission) to analyze 
        the Department's laboratory and technology complex, 
        specifically examining sizing issues and whether facility 
        consolidation options are viable;
  --Reprioritize the Department's environmental remediation efforts; 
        and
  --Reevaluate the current structure of the Department's physical 
        security apparatus.
    Information related to these cost savings proposals is available 
at: http://energy.gov/sites/prod/files/IG-0858.pdf and http://
energy.gov/sites/prod/files/IG-0874_1.pdf.
    In further response to your inquiry, I want to inform you that, at 
this time, we are in the process of planning our audit strategy for 
fiscal year 2014. The Department's fiscal year 2014 appropriation, 
including funding trends, programmatic priorities, and potential 
budgetary reductions, will be a primary reference point in our planning 
efforts. We rely on a risk-based selection methodology in this process. 
Thus, the management challenges previously discussed will also be an 
integral component in developing our work plan for fiscal year 2014.
    Finally, for your information, I testified on the Department of 
Energy's management challenges on March 14, 2013, at a hearing before 
the U.S. House of Representatives' Committee on Science, Space, and 
Technology, Subcommittee on Oversight. That testimony may be of 
interest to you as it relates to these proceedings. My previous 
testimony is available at: http://energy.gov/sites/prod/files/
Testimony%20of%20Gregory%20H%20Friedman%20March%2014%202013.pdf.
    Madam Chairwoman, this concludes my statement. I hope this 
information is helpful to you and the subcommittee.

    Senator Feinstein. Now, let me turn to Senator Alexander 
for his statement.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Madam Chairman. Secretary 
Poneman, welcome for your 15 minutes. We look forward to 
working with you.
    I'm glad to see the focus in the budget on the Office of 
Science. A great deal of our wealth in the United States, and 
we produce about 25 percent of all the money in the world for 
just about 5 percent of the people, comes from technological 
advances over the years. And eventually, we share those with 
the world. But for the first few years, those benefit us 
disproportionately.
    And our National Laboratories and the Office of Science, 
along with our research universities, as well as our, of 
course, industrial research, but particularly our Government-
sponsored research, is crucial to our economic wellbeing. It's 
hard to think of a major advance over the last number of years 
that hasn't had some level of support from Government-sponsored 
research. So I'm glad to see in difficult budget times that 
emphasis.
    I agree with the Chairman about ARPA-E. That was 
recommended by the America COMPETES (America Creating 
Opportunities to Meaningfully Promote Excellence in Technology, 
Education, and Science) legislation, which has twice now had 
broad support within the Congress when it was first enacted, 35 
Republicans, 35 Democratic Senators, proposed by the majority 
and minority leader.
    And ARPA-E, I think, has done well because it's tried to 
follow the highly successful model of Defense Advanced Research 
Projects Agency (DARPA) in the Defense Department, which 
fundamentally brings in, hires very highly talented people, 
some with a practical entrepreneurial bent, who identify 
promising projects, bring them in for a little while, and then 
throw them back out in the marketplace and don't stay involved 
very long.
    So I think part of your success is that the question has 
been: What would DARPA do? And then you've tried to do it. And 
I agree with Senator Feinstein that that deserves priority.
    Exascale computing is an area that the Department has 
emphasized, and we need to keep emphasizing, because even with 
our emphasis, we're falling behind in some ways. At least we 
have challenges in high-performance computing from China, 
India, Russia, and Europe. And so many of our advances in our 
economy and in our health and in our wellbeing depend upon 
that, whether it's biofuels, next generation technologies.
    The Oak Ridge Laboratory, I know, is using the big 
computers to help the Department of Health and Human Services 
look at waste, fraud, and abuse claims as a way of saving money 
in our healthcare system. They're mining data that will help 
produce earlier detection of breast cancer, so exascale 
computing has practical, everyday advantages. And I hope to 
continue to support it strongly.
    I like the Department's hubs. I like the idea of 
identifying grand challenges. Dr. Chu has done that. I've 
talked about that some. The National Academies have done that 
as well, of hubs with metrics at the end, like your $1 per watt 
installed for solar or a metric for where you want your battery 
to go.
    I'm concerned that one of the hubs is not as promising as 
others. And just as Chairman said, when you see four that work 
and one that doesn't, you get rid of the one; I hope you will 
apply the same sort of discipline to your hubs. And I'm 
concerned about the proposed electricity system's hub. I don't 
see that it really has the same sort of grand challenge that 
the other four highly successful ones do.
    I'm pleased with what I hear about the small modular 
reactor program that we have supported on this committee. And 
I'm pleased to hear--I've met with the one person, one company 
that you've designated to move ahead. And they seem to believe 
that they'll be able to sell power at the same price per 
kilowatt-hour from a small reactor that you would from a large 
one, and to do that in a safer way. I think that holds great 
promise.
    Senator Feinstein and I are working with Senators White and 
Murkowski on the parallel effort that we're making for our 
longstanding challenge on disposable nuclear fuel. And that's a 
high priority both for the Chairman and for me, and we hope it 
continues to be for the Department.
    Mr. Huizenga visited Oak Ridge the other day, and we 
announced a beginning of a shift from cleaning up radioactive 
waste, which we still have quite a bit to do on, but toward the 
mercury contamination that is in the water, in a limited part 
of the water around Oak Ridge, East Fork Poplar Creek, to be 
specific. And the budget includes $10 million for the water 
treatment facility which will clean up the water as it goes 
into the creek.
    We understand the mercury, our worry about mercury is 
primarily when it gets into the fish and we eat the fish. So 
cleaning it up before it gets into the creek and then into the 
Clinch River is exactly the thing we should be doing now.
    Over the long term, mercury will replace radioactive waste 
as our biggest concern. As Secretary Chu understood, all of the 
competing claims for cleanup are important, but in this area we 
have a high concentration of population. So mercury in the 
water in an area of high-level population is a bigger problem 
than it might be in a remote location.
    And finally, the Chairman and I want to make sure that when 
the UPF, the uranium processing facility, is completed with its 
design that the contractor has a good design and that the 
contractor is prepared to build it on time and under budget so 
we can begin to get control of these large projects that the 
Energy Department has, this being the largest new one.
    So, we welcome you. I thank you for coming. I look forward 
to your testimony.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Mr. Secretary, we'd love to hear your comments now.

              SUMMARY STATEMENT OF HON. DANIEL B. PONEMAN

    Mr. Poneman. Thank you, Madam Chairman. And with your 
permission, I will summarize my written statement and ask that 
it be submitted in the record.
    Senator Feinstein. That's very good. Thank you.
    Mr. Poneman. Chairman Feinstein, Ranking Member Alexander, 
members of the committee, thank you for the opportunity to 
appear before you today to discuss the President's fiscal year 
2014 budget request for the Department of Energy.
    The United States is on the path to a cleaner and more 
secure energy future. Since President Obama took office, oil 
and gas production has increased each year, while oil imports 
have fallen to a 20-year low; renewable electricity generation 
from wind, solar, and geothermal sources has doubled; and the 
carbon emissions that threaten our planet have fallen to the 
lowest level in the United States in nearly two decades.
    In short, the President's approach is working. It's a 
winning strategy for the economy, energy security, and the 
environment. But even with this progress, there is more work to 
do. The Energy Department plays a vital leadership role in 
continuing the significant progress America has made in 
producing more American energy, creating the clean-energy jobs 
of the future, and increasing energy efficiency across the 
economy.
    In total, the President's 2014 budget provides $28.4 
billion in discretionary funds for DOE to support its mission 
to assure future generations may live in a country that is 
safer, healthier, and more prosperous.
    As part of the administration's all-of-the-above energy 
strategy, the President's budget request invests in programs 
that support research and deployment of the energy technologies 
of the future. These investments will help us double America's 
energy productivity by 2030, save consumers and businesses 
money by saving energy, and support groundbreaking research and 
innovation to leverage every domestic source of energy, from 
hydrocarbons and nuclear to solar, wind, and water.
    The administration recognizes its role in fostering 
scientific and technological breakthroughs and has committed 
significant resources so that our Nation can lead the world in 
the innovations of the future. This includes $5.2 billion for 
the Office of Science to support basic research that could lead 
to new discoveries and help solve our energy challenges.
    The President's budget supports DOE's Energy Frontier 
Research Centers, which are working to solve specific 
scientific problems to help unleash new clean-energy technology 
development and our energy innovation hubs, which bring 
together our Nation's top scientists and engineers to achieve 
game-changing energy goals.
    The fiscal year 2014 request also includes $379 million for 
the Advanced Research Projects Agency for Energy to support 
high-impact energy-related research projects with the potential 
to transform the energy sector.
    In addition to strengthening our economy, the budget 
request also strengthens our security by providing $11.7 
billion for the Department's National Nuclear Security 
Administration. NNSA, as you well know, plays a vital role in 
achieving President Obama's nuclear security objectives, 
including in the prevention of nuclear terrorism and the grave 
and urgent threat it presents to our Nation and to the world.
    Finally, the President's budget request of $5.6 billion 
provides the resources to clean up the cold war legacy and 
continue the world's largest environmental remediation effort, 
led by the Office of Environmental Management.
    Given the urgency of the challenges that we face and the 
current fiscal climate, DOE remains committed to streamlining 
our organization to improve performance and save taxpayer 
money. The Department has already achieved approximately $322 
million in strategic sourcing savings; we still have a lot more 
work to do.

                           PREPARED STATEMENT

    The President's fiscal year 2014 budget request for the 
Energy Department protects Americans from nuclear hazards; 
advances basic science and cutting-edge research to strengthen 
America's future competitiveness; and helps make America a 
magnet for jobs again by investing in high-tech manufacturing 
and innovation, clean energy, and infrastructure.
    The budget does all of these things as a part of a 
comprehensive plan that reduces the deficit and puts the Nation 
on a sound fiscal course.
    Thank you, Madam Chairman, and I am now pleased to answer 
your questions.
    [The statement follows:]
              Prepared Statement of Hon. Daniel B. Poneman
    Chairman Feinstein, Ranking Member Alexander, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss the President's Fiscal Year 2014 Budget request for the 
Department of Energy.
    The United States is on the path to a cleaner and more secure 
energy future. Since President Obama took office, responsible oil and 
gas production has increased each year, while oil imports have fallen 
to a 20 year low; renewable electricity generation from wind, solar, 
and geothermal sources has doubled; and the carbon emissions that 
threaten our planet have fallen to the lowest level in the U.S. in 
nearly two decades. In short, the President's approach is working. It 
is a winning strategy for the economy, energy security, and the 
environment.
    But even with this progress, there is more work to do. High gas 
prices impact American families and businesses every day, and remind us 
that we are still too reliant on oil, which comes at a cost to American 
families and businesses. While there is no silver bullet to address 
rising gas prices in the short term, President Obama remains committed 
to a sustained, all-of-the-above energy strategy and common-sense 
proposals that will further reduce our dependence on oil, better 
protect consumers from spikes in gas prices, and reduce pollution.
    The Energy Department plays a vital leadership role in continuing 
the significant progress America has made in producing more American 
energy, creating the clean energy jobs of the future, and making energy 
more efficient across the economy.
    In total, the President's 2014 Budget provides $28.4 billion in 
discretionary funds for DOE to support its mission. The Fiscal Year 
2014 Request supports the President's goal to increase American 
competitiveness and reduce our reliance on oil by making strategic 
investments in critical research and technology sectors for clean 
energy and to make significant national security advances to leave 
future generations with a country that is safer, healthier, and more 
prosperous. Further, the President proposes investments so the United 
States will lead the world in development, demonstration, and 
deployment of clean energy technologies, to reduce our dependence on 
oil and to mitigate the impact of climate change. The Request also 
includes increased funding to modernize the Nation's nuclear deterrents 
and continue securing vulnerable materials around the world. In light 
of the current discretionary spending caps, these increases in funding 
are a testament to the importance of clean energy and innovation to the 
country's economic future and the importance of nuclear security to the 
Nation's safety.
       investing in clean energy, innovation, jobs of the future
    As part of the Administration's all-of-the-above energy strategy, 
the President's budget request invests in programs that support 
research and deployment of the energy technologies of the future. These 
investments will help us double American energy productivity by 2030, 
save consumers and businesses money by saving energy, and support 
groundbreaking research and innovation to leverage every domestic 
source of energy, from natural gas and nuclear to solar and wind.
    The budget request invests approximately $4.7 billion in applied 
energy programs. This is a 42 percent increase over fiscal year 2012 
enacted levels and demonstrates the President's commitment to making 
America a magnet for clean energy jobs, ensuring our nation's energy 
security, and combating climate change.
    The Request includes $2.8 billion in funding for programs designed 
to help meet the President's goals of investing in the next generation 
of renewable energy technologies, advanced vehicles and fuels, and 
energy efficiency measures that reduce energy use in Federal agencies 
and the industrial and building sectors.
    The budget continues to support the Department's successful SunShot 
initiative, which aims to make solar energy cost-competitive with 
conventional sources of electrical energy, without subsidy, by the end 
of the decade. It also supports several other cross-cutting initiatives 
including the following:
  --EV Everywhere Grand Challenge.--Advances the goal of making the 
        U.S. the first country in the world to invent and produce plug-
        in electric vehicles that are as affordable and convenient as 
        gasoline powered vehicles by 2022.
  --Clean Energy Manufacturing Initiative.--Focuses on dramatically 
        improving U.S. competitiveness in the manufacturing of clean 
        energy products and strengthening U.S. competitiveness across 
        multiple manufacturing industries through increased energy 
        productivity.
  --Grid Integration Initiative.--Develops the technologies, tools, and 
        approaches to overcome grid integration barriers for renewable 
        energy, electric vehicles, and energy-efficient building 
        technologies while maintaining grid reliability.
    In addition to the Grid Integration Initiative, the budget request 
includes $169 million to facilitate grid modernization and increase the 
reliability and security of the grid. In fiscal year 2014, we are 
undertaking efforts to produce real-time analysis of the transmission 
system and energy supply disruptions, improve response times during 
emergencies, and promote effective cyber-security capabilities in the 
energy sector.
    Investing in energy efficiency and renewable energy generation are 
fundamental steps necessary for creating a clean energy economy. The 
Administration continues to call on Congress to pass HomeStar or 
similar mandatory funding legislation aimed at creating jobs and 
spurring economic growth by encouraging Americans to invest in energy-
saving home improvements.
    Currently, nuclear energy supplies approximately 20 percent of the 
Nation's electricity and over 60 percent of clean, non-carbon producing 
electricity. Over 100 nuclear power plants are offering reliable and 
affordable baseload electricity in the United States, and they are 
doing so without air pollution and greenhouse gas emissions. The budget 
request invests $735 million in the nuclear energy program to help 
develop the next-generation of nuclear power technologies, including 
small modular reactors and improved light water reactor systems, and 
continue R&D efforts in areas such as improved fuel forms. The Budget 
also provides $60 million to support the Administration's Strategy for 
the Management and Disposal of Used Nuclear Fuel and High Level 
Radioactive Waste, which provides a framework for moving toward a 
sustainable program to deploy an integrated system capable of 
transporting, storing and disposing of used nuclear fuel and high-level 
radioactive waste.
    As we move to a sustainable energy future, America's fossil energy 
resources will continue to play an important role in our energy mix. 
President Obama is committed to developing our oil and gas resources in 
a safe and sustainable manner. Today, America produces more natural gas 
than ever before--and nearly everyone's energy bill is lower because of 
it. The Administration's Budget Request includes $638 million to 
advance technologies related to the reliable, efficient, affordable, 
and environmentally sound use of fossil fuels, and provide strategic 
and economic security against disruptions in U.S. oil supplies. Key R&D 
efforts include developing cost-effective carbon capture and storage 
and advanced power systems. The Budget also invests $2 billion over the 
next 10 years from Federal oil and gas development revenue in a new 
Energy Security Trust that would provide a reliable stream of mandatory 
funding for R&D on cost-effective transportation alternatives that 
reduce our dependence on oil.
    As industry, Congress, and the American people make critical energy 
decisions that require an in-depth understanding of domestic and 
international energy markets, it's important that we adequately fund 
the Energy Information Administration, the nation's premier source of 
independent statistical information about energy production and use. 
That is why the budget request includes $117 million for EIA.
    investing in science and innovation to keep america competitive
    Competing in the new energy economy will require us to harness the 
expertise of our scientists, engineers, and entrepreneurs. As the 
President said, the ``the world is shifting to an innovation economy, 
and nobody does innovation better than America. In today's innovation 
economy, we need a world-class commitment to science and research.'' 
The President is committed to making investments in research and 
development (R&D) that will grow our economy and enable America to 
remain competitive. This focus on science and innovation will help 
create the industries and jobs of the future and address the challenges 
and opportunities of the 21st Century.
    The Administration recognizes the Government's role in fostering 
scientific and technological breakthroughs, and has committed 
significant resources to ensure America leads the world in the 
innovations of the future. This includes $5.2 billion for the Office of 
Science to support basic research that could lead to new discoveries 
and help solve our energy challenges. These funds support progress in 
materials science, basic energy science, advanced computing and more. 
They also provide America's researchers and industries with state-of-
the-art tools to ensure they stay at the cutting edge of science.
    The budget request continues to support Energy Frontier Research 
Centers. The Energy Frontier Research Centers are working to solve 
specific scientific problems to help unleash new clean energy 
technology development. So far, the EFRCs have generated some 3,400 
peer-reviewed papers 60 invention disclosures, and 200 patents, and the 
Centers report numerous instances of technology transfer. In their 3-
plus years of existence, the EFRCs have achieved scientific 
breakthroughs in multiple areas, from solar power and batteries to new 
catalysts for refining petroleum and powering fuel cells. In fiscal 
year 2014, we are going to hold an open re-competition to select new 
EFRCs and consider renewal applications for existing EFRCs.
    The budget request also supports the five existing Energy 
Innovation Hubs and proposes a new Hub in electricity systems. Through 
the Hubs, we are bringing together our nation's top scientists and 
engineers to achieve game-changing energy goals. The Hubs continue to 
make progress. For example, the Modeling and Simulation for Nuclear 
Reactors Hub has released the first versions of software that, support 
simulating a virtual model of an operating physical reactor. The Fuels 
from Sunlight Hub has filed multiple invention disclosures and 
published scientific papers. And the Energy Efficient Buildings Hub is 
developing advanced building modeling tools and has built one of the 
country's first 3-D building design labs.
    Additionally, the budget request includes $379 million for the 
Advanced Research Projects Agency for Energy, known as ARPA-E, to 
support high-impact energy-related research projects with the potential 
to transform the energy sector. ARPA-E has invested in roughly 285 
high-risk, high-reward research projects that, if successful, could 
create the foundation for entirely new industries. Seventeen of these 
projects, which received an initial investment from ARPA-E of 
approximately $70 million in total, have attracted over $450 million in 
private sector follow-on funding. These companies and research teams 
have produced a battery that doubled the energy density of any previous 
design, successfully engineered microbes that use carbon dioxide and 
hydrogen to make fuel for cars, and developed a 1 megawatt silicon 
carbide transistor the size of a fingernail.
    In fiscal year 2014, ARPA-E will continue to work on all aspects of 
transportation, including alternative and bio-derived fuels, batteries, 
components for transportation electrification, and advanced vehicle 
designs and materials. Additionally, ARPA-E will continue to work on 
all aspects of stationary power systems, including building efficiency, 
stationary energy storage systems, grid modernization, and stationary 
energy generation.
    Taken together, our research initiatives will help power America's 
great innovation machine to accelerate energy breakthroughs and create 
jobs.
                      nuclear safety and security
    In addition to strengthening our economy, the budget request also 
strengthens our security by providing $11.7 billion for the 
Department's National Nuclear Security Administration. NNSA plays a 
vital role in achieving President Obama's nuclear security objectives.
    As the United States begins the nuclear arms reduction required by 
the New START treaty, the science, technology and engineering 
capabilities within the nuclear security enterprise will become even 
more important to sustaining the U.S. nuclear deterrent. The budget 
request includes $7.9 billion for Weapons Activities, a 9 percent 
increase over the fiscal year 2012 enacted levels. This increase 
provides a strong basis for transitioning to a smaller yet still safe, 
secure and effective nuclear stockpile. It also strengthens the 
science, technology and engineering base of our enterprise.
    The budget request also includes $1.2 billion for the Naval 
Reactors program to ensure the safe and reliable operation of reactors 
in nuclear-powered submarines and aircraft carriers and to fulfill the 
Navy's requirements for new nuclear propulsion plants that meet current 
and future national defense requirements.
    Additionally, the budget request supports NNSA's critical work to 
prevent nuclear terrorism--one of the most immediate and extreme 
threats to global security. That is why President Obama has elevated 
this challenge to the top of our national security goals. It includes 
$2.1 billion to implement key nuclear security, nonproliferation and 
arms control activities. It supports efforts to detect, secure, and 
dispose of dangerous nuclear and radiological material around the 
world. And it will help the Department to fulfill its role in 
completing the President's 4-year plan to secure all vulnerable nuclear 
materials worldwide.
    Finally, the President's Fiscal Year 2014 Budget Request of $5.622 
billion provides the resources to clean up the Cold War legacy and 
maintain momentum in the world's largest environmental remediation 
effort, led by the Office of Environmental Management (EM). EM 
continues to develop and apply innovative environmental cleanup 
strategies and construct and operate one-of-a-kind, highly-complex 
facilities to safely complete clean-up in a manner that demonstrates 
continued value to the American taxpayers.
                 investing for security and prosperity
    The President's Fiscal Year 2014 Budget Request for the Energy 
Department protects Americans from nuclear hazards, advances basic 
science and cutting-edge research to strengthen America's future 
competitiveness, and helps make America a magnet for jobs again by 
investing in high-tech manufacturing and innovation, clean energy, and 
infrastructure. The Budget does all of these things as part of a 
comprehensive plan that reduces the deficit and puts the Nation on a 
sound fiscal course.
    As President Obama has said, ``Today, no area holds more promise 
than our investments in American energy. After years of talking about 
it, we're finally poised to control our own energy future.'' The 
investments included in the Administration's Energy Department budget 
request are vital to ensuring America's energy security and securing 
America's place as the world leader in the clean energy economy.
    Thank you, and now I am pleased to answer your questions.

    Senator Feinstein. Thank you very much, Mr. Poneman.

            INTERNATIONAL THERMONUCLEAR EXPERIMENTAL REACTOR

    Now, let's go to the questions. My first one is ITER. It's 
the most expensive capital project you have. It spends $225 
million each year over the next 7 years. The Department has not 
provided a cost, a schedule, or a scope baseline for the United 
States contribution. The subcommittee has no way to evaluate 
how much it will cost to build ITER, over what timeframe, and 
the impacts to the domestic program.
    This lack of information is really unacceptable, and I want 
to give the Department fair warning. This puts the United 
States contribution as high as $3 billion.
    First question: Will you commit to provide Congress, us, 
with a cost schedule and scope baseline for the entire ITER 
construction project by the end of the year, as directed in our 
last bill last year?
    Mr. Poneman. Madam Chairman, we completely share the 
concern you have about the overall project management of the 
ITER project. It's a unique project for the United States in 
the sense that we are not the construction project managers as 
we are for our own facilities. And that's why the disciplines 
that we have put in place under our so-called Order 413 don't 
actually allow us to control the budget of the whole project 
because of the many international partners who are involved.
    What I can commit to you is a complete transparency with 
this committee about what we are doing and what we are looking 
at to ensure that the project management of the ITER project, 
which Dr. Brinkman spent a lot of time over the last 2 years 
trying to improve, that we have a complete data flow to you 
about that and that in terms of the U.S. contributions, which 
is the part----
    Senator Feinstein. Where does it rank on your list of 
priorities?
    Mr. Poneman. In terms of our scientific priorities, as you 
said, it's the largest capital-asset project in the science 
portfolio.
    Senator Feinstein. So is this the number-one priority?
    Mr. Poneman. There are many challenging----
    Senator Feinstein. Is the answer no? Is that what you're 
saying?
    Mr. Poneman. No, I didn't. The ITER project is, I would 
say, the most important international scientific 
collaboration----
    Senator Feinstein. Is it number one in your priority? I 
mean, don't you think we should have the cost, the schedule, 
and the scope baseline?
    Mr. Poneman. I think, absolutely, Madam Chairman, we should 
have our U.S. contribution scoped and deadlined. But there are 
Russian contributions, Japanese, Indian, and so forth.
    Senator Feinstein. That's correct.
    Mr. Poneman. And so all I'm saying is I can commit to the 
part that we control, which is the U.S. part.
    Senator Feinstein. Good. Well, if you get us the 
information for the U.S. part, that's something.
    Mr. Poneman. That's what we're talking about.
    Senator Feinstein. Okay. So when will we have it?
    Mr. Poneman. I will--I actually was talking to Dr. Dehmer 
this morning about this because I was hearing of the concerns 
from the committee. And I am going to be working with her to 
come--I'll come back to you very quickly with precise dates. 
But I understand the urgency. We share the sense of urgency. 
And the things that you're asking for are absolutely 
appropriate.
    Senator Feinstein. And reasonable, I think.
    Mr. Poneman. Very reasonable.

                                EXASCALE

    Senator Feinstein. Okay. Here's the second ``ex,'' and it 
has to do with exascale. You have a 10-year research and 
development effort. The budget request does not reflect this 
priority. Little funding is available. NNSA has no dedicated 
funding for exascale. So we would like the exascale strategic 
plan, which was due more than a year ago, by the end of this 
month.
    Mr. Poneman. Madam Chairman, I will commit to you to that.
    Senator Feinstein. Okay. Okay. Now that's in the record. 
You know, we've been going from one project to the other, 
everything over-budget, everything costing much more. It's 
almost as if there's a kind of ether over there, and projects 
just sort of float in the ether, and they don't really get any 
hands-on management. That's what the vice chairman and I have 
been trying to change.
    Mr. Poneman. Madam Chairman, we have benefited a lot 
already, for example, specifically on the UPF project from our 
continued and repeated engagement. This is a huge challenge, 
goes back many, many years. We have taken a number of steps to 
get better.
    And as you look over time, we have gotten off of different 
portions of the Government Accountability Office (GAO) High-
Risk List. First, we got the science projects off. Next, this 
time around, we got the environment management projects under 
$750 million off.
    We still have a lot more work to do. I couldn't agree with 
you more. And we can work----
    Senator Feinstein. Okay. Last question.
    Mr. Poneman. Yes.
    Senator Feinstein. With no funding provided, can you 
achieve--the office can achieve exascale computing? Do you 
believe you can achieve it?
    Mr. Poneman. Well, the question, Madam Chairman, I think is 
when. It's a big goal. We're working through petascale 
computers now. We've got these tremendous----
    Senator Feinstein. But if you're not funding it, do you 
think you can achieve it?
    Mr. Poneman. Well, Madam Chairman, I believe we do have, I 
thought, on the order of $68 million dedicated to that program 
for exascale in 2014.
    Senator Feinstein. Well, our genius-in-residence tells me 
that the amount is much less.
    Mr. Poneman. Okay. Then the number I have is, our fiscal 
year 2014 request is $68.5 million. The question of doing this 
as a cross-cut among the agencies is something I'd be very 
happy to engage with you, Madam Chairman.
    Senator Feinstein. Yes. We don't want to interfere in what 
you think on that score.
    Mr. Poneman. Yes.
    Senator Feinstein. But we want to see projects that get 
done and are managed and are tightly managed.
    Mr. Poneman. Madam Chairman, first of all, on the generic 
point, we strongly agree. We've undertaken a number of reforms 
to try to divide projects into discrete chunks so we can get 
the costs and budget under control. We've done a lot of good 
work, I think, including in the State of Tennessee on the 
Building 3019 project to really--we have some successes.
    But we've got a lot more to do. We welcome the cooperation 
and the leadership of the committee in that.

                   ELK HILLS NAVAL PETROLEUM RESERVE

    Senator Feinstein. Okay. One last thing. The Elk Hills 
agreement, which was left out, as you know. I'm interested to 
know why. This is a legal decision, and we owe this money. It's 
not in the budget.
    Can you tell me why?
    Mr. Poneman. Madam Chairman, it's my understanding that we 
did not have the resources in the fiscal 2013 funding stream to 
support the completion of our obligations to pay for that. And 
we will work with the committee to make sure that we have the 
resources to fulfill our obligation to the State of California 
to pay the remaining balance in the Elk Hills agreement.
    Senator Feinstein. In this fiscal year?
    Mr. Poneman. We will--well, I have to consult. I don't know 
exactly where the dollars are right now. But we are committed 
to satisfy our obligation to the State. And we were short-
funded.
    Senator Feinstein. Okay, but you didn't request it in your 
2014 budget.
    Mr. Poneman. I think--well, I have to find out what 
happened in terms of the continuing resolution. I think there 
had been earlier dollars that were identified that were then 
not available. But I have to get----
    Senator Feinstein. Well, I really need to know what 
happened.
    Mr. Poneman. I will undertake to get back to you.
    Senator Feinstein. So before we mark up the budget, and 
mark up our bill, I would like to know why funding was not 
requested for the next fiscal year 2014.
    Mr. Poneman. We will provide that information.
    Senator Feinstein. Okay. Thank you, thank you.
    Mr. Vice Chairman?
    Senator Alexander. Thank you, Madam Chairman.

                       TENNESSEE VALLEY AUTHORITY

    Welcome, Secretary Poneman. Tritium is important to NNSA in 
the production of nuclear weapons; is that not correct?
    Mr. Poneman. Yes, sir.
    Senator Alexander. Do you know where the source of tritium 
for our nuclear weapons?
    Mr. Poneman. Customarily, we have been irradiating bars in 
reactors such as Watts Bar and producing the tritium out of 
that activity.
    Senator Alexander. Yes. But I believe you only get the 
tritium from the Watts Bar reactor and the Tennessee Valley 
Authority (TVA) system.
    What would happen if the Government sold the Tennessee 
Valley Authority? Where would you get your tritium?
    Mr. Poneman. Senator, I think the first thing to say is, as 
I think you know, there have been certainly no decision to do 
that. There's been a discussion that has been opened on that 
subject.
    And I can assure you that the United States remains 
committed to preserve a safe, secure, and effective deterrent. 
Tritium is an essential component to that deterrent. And 
whatever discussion happens about TVA would be informed by our 
need to assure our tritium supplies rolling forward.
    Senator Alexander. Well, is it your idea to sell TVA?
    Mr. Poneman. No, sir. As I think you know, TVA does not 
fall under the jurisdiction of the Department of Energy.
    Senator Alexander. Well, but you're the Energy Department, 
and it's the largest public utility.
    Mr. Poneman. We are very aware of it. And as you know, we 
are indispensably tied to it at the moment in terms of our 
source for tritium. I am confident that as we move forward in 
any discussions about TVA that the Department of Energy would 
be part of that conversation.
    Senator Alexander. Well, you're also tied to it because it 
will be the owner of the small nuclear reactor that is built as 
a part of the program that the Department has started; is that 
correct?
    Mr. Poneman. Yes, sir. And as you know, that small modular 
reactor program is a very important part of our nuclear future.
    Senator Alexander. Were you consulted about the language in 
the budget that suggested that the Government might sell TVA?
    Mr. Poneman. Senator, as I said, TVA does not fall under 
the jurisdiction.
    Senator Alexander. So you weren't.
    Mr. Poneman. And I had my hands full with the DOE budget.
    Senator Alexander. Yes, but the answer is no, I guess. You 
weren't consulted.
    Mr. Poneman. I was not personally involved in those 
conversations.
    Senator Alexander. Do you know whether Dr. Chu or anyone 
else at the Department of Energy, anyone asked them what about, 
``What are we going to do for tritium? What are we going to do 
with the small nuclear reactor if we were to sell TVA?''
    Mr. Poneman. Senator, the one thing that I do know is that 
any decision rolling forward that would consider what to do 
with the TVA would, of course, involve consultation with the 
Department of Energy.
    Senator Alexander. So you'd get the consultation after the 
fact? Did you know that as the result of just the random 
mention of it in the budget that the Tennessee Valley Authority 
bonds lost a market value of half $1 billion?
    Mr. Poneman. No, sir, I'm not----
    Senator Alexander. According to the TVA management, that 
was the effect. And did you know that the effect of that is to 
raise electric bills for customers all throughout the Tennessee 
Valley over time and that, depending on the timing and 
resolution of this discussion, that the loss could grow to 
considerably more?
    Mr. Poneman. Well, I can tell you, Senator, that our 
commitment is to minimize the rates paid by American taxpayers 
and American rate payers.
    Senator Alexander. Well, don't you think it would have been 
wiser if somebody wanted to sell TVA that they might sit down 
and have a private discussion about it first rather than it 
cause the value of the bonds to plunge?
    I mean, you know that the bonds aren't even backed by the 
Federal Government, and they're held by private investors, and 
that the Federal taxpayer makes no contribution to TVA today, 
and that there are many who doubt that, if you were to sell 
TVA, that there would even be much to be gained because of its 
$25 billion debt.
    Plus, I don't hear a big clamor down in Tennessee for 
selling TVA.
    Mr. Poneman. Senator, I know that there was a larger 
conversation that talked about ways in which the U.S. 
Government could become a more efficient steward of the 
taxpayer resources. I think that's a conversation that involved 
a number of entities, and I think TVA was mentioned in that 
context.
    But I can assure you, rolling forward, which I think should 
be kept in mind is that no decision has been made. It was only 
the opening of a conversation.
    Senator Alexander. Yes. Yes.
    Mr. Poneman. And in the conversation to come, all of the 
factors that you have discussed, such as the small modular 
reactors (SMRs) and the tritium production, I'm sure would----
    Senator Alexander. Well, what I would--seems to me the 
President probably has his hands full these days with other 
matters, and the Department of Energy isn't consulted, and 
you've got a pretty big agenda as well.
    I think there's somebody with the green eyeshade down there 
in the Office of Management and Budget who just thinks it's a 
cool idea to talk about selling the Tennessee Valley Authority, 
and we don't appreciate that approach.
    I mean, it's an ill-conceived reckless approach. Just the 
random, casual conversation about it has driven down the value 
of the bonds, made them harder to sell, perhaps raised the 
electric bills that we might have throughout the Tennessee 
Valley, and so far as I can tell, has no good purpose.
    So my suggestion would be that if there were any--my first 
suggestion is you drop the idea. If you want to reduce the 
debt, we work on controlling cost overruns on Department of 
Energy projects or rolling in, reining in entitlement spending.
    Or, if you want to continue to discuss it, that you have 
private discussions about it that don't affect the bond market 
and have the unintended consequences of raising the electric 
bills for customers of the largest public utility in the world.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Senator Udall, welcome to the committee.
    Senator Udall. Well, thank you very much. Thank you, Madam 
Chairman. Great to be here with you today. And first I'd like 
to thank you and Vice Chair Alexander for helping and the 
department and the White House for being responsive to our 
critical reprogramming request for cleanup funding at Los 
Alamos National Lab. And I understand the $19 million 
reprogramming request moved through the congressional approval 
process just a few hours ago, so this is very encouraging. And 
I just want to thank you all very much for that help.

                         NUCLEAR WASTE CLEANUP

    Cleanup of waste, including plutonium waste, at Los Alamos 
is critical for DOE to meet its commitments to New Mexico. As 
you're very well aware, there's a consent order in place under 
court supervision. It's been filed with the court. And I 
understand that DOE is considering an additional $21 million 
transfer from NNSA to help for cleanup. These funds will help 
the continuing resolution levels move closer to the President's 
request.
    Can you tell me the status of that funding? And is DOE 
working to expedite that transfer?
    Mr. Poneman. Yes, Senator. And I, too, just received the 
word a few hours ago, and we're very pleased indeed that the 
first $19 million has been approved and will be now available.
    And just let me put that in the context of the great 
importance we attach to the site and to the safety of the site. 
We are very aware of the threat that fires pose to that 
material, and we certainly don't want to see that risk go 
unanswered.
    In that spirit, yes, we are in fact looking to plus-up the 
19 with an additional $21 million so we have $40 million to 
dedicate to moving that transuranic waste to a safer location. 
And we are in the process of working with that. I believe our 
staffs have been in consultation, and we are very interested in 
proceeding down that track.
    Senator Udall. Thank you for that work on that.

                     WASTE ISOLATION PILOT PROJECT

    The waste isolation pilot project outside Carlsbad, New 
Mexico, is of critical importance to the Nation. In 2013 and 
2014, we've requested at least $222 million to operate this 
facility. The President's 2014 budget request was only $203 
million. Waste Isolation Pilot Plant (WIPP) is the Nation's 
only repository for defense-generated transuranic waste.
    And we're really doing the rest of the Nation a valuable 
service, but WIPP is an aging facility. Additional funds are 
needed for operations, maintenance, and repairs. DOE also used 
to provide about $24 million in WIPP road assistance, but that 
has been taken out the budget request in recent years.
    And now the DOE is proposing to send Hanford tank waste to 
WIPP, which our State currently prohibits. That prohibition was 
established by then-Governor Bill Richardson, and he knew a 
little something about DOE, as you know. He was concerned that 
Hanford waste would contain high-level waste, which is 
prohibited by law at WIPP.
    Obviously, DOE will need to be technically accurate and 
honest with us, or there will be huge problems there. If DOE 
wants New Mexico to step up and help with Hanford, will DOE 
step up to help New Mexico with Los Alamos cleanup, WIPP 
maintenance, and restoring State road funding?
    Mr. Poneman. Senator, thank you for the question. I have 
had the opportunity to visit WIPP, the Waste Isolation Pilot 
project. It is an incredibly impressive facility. It's working 
very, very well, which may be why we don't hear as often about 
it.
    We have had to, in these distressed budget times and under 
the continuing resolution and sequester, Senator, make certain 
economies. We are focusing on operating that facility safely 
and reliably. And if we can achieve certain savings that can be 
rededicated to mission, we'll do that. We're expecting to get 
21 shipments into WIPP this year.
    Clearly, Senator, anything that would have to do with 
accepting additional streams of material from Hanford or 
anywhere else, just as you said, would have to be described 
analytically, technically, carefully, and accurately, and in 
full transparency and consultation, not only with you, Senator, 
but of course, with the State regulatory authorities. And I can 
commit to that to you.
    Finally, we are dedicating, in addition to the 
reprogramming request, on the order of $214 million to Los 
Alamos cleanup. I can't even count the number of times I've 
been there. It is truly a fabulous institution, and we are very 
committed to keeping it as a critical part of our national 
security infrastructure.
    Senator Udall. Thank you very much.
    And I have one more question, Madam Chairman.
    Senator Feinstein. You go ahead. Please, you go ahead.
    Senator Udall. Okay. Thank you.

                NATIONAL LABORATORY TECHNOLOGY TRANSFERS

    This is relating to the National Labs diversification tech 
transfer. As you know, the labs are essential to DOE's research 
and development mission. They focus on critical cutting-edge 
technologies for multiple applications that vary from keeping 
our stockpile safe and secure to developing the next generation 
of advanced biofuels and beyond.
    There are so many applications for these advanced 
technologies if they can be researched, developed, 
demonstrated, and deployed effectively. Tech transfer and 
innovation is critical to the Nation, and we are lucky to have 
two leaders working on that challenge, Sandia National Labs and 
Los Alamos National Labs in New Mexico.
    What are the main barriers to advancing tech transfer and 
innovation activities at DOE, and how can we work together to 
overcome those barriers?
    Mr. Poneman. Senator, it's a great question. And again, I 
would only embrace the premise. I'm among the people who uses 
the phrase ``crown jewels'' when it comes to these National 
Laboratories, not only in New Mexico, but elsewhere as well. 
And in and out of Government, I've tried to think about and 
champion ways to make sure that we can assure their continued 
scientific vitality for national security and other purposes.
    There's a few things that we've been doing to address 
precisely the problem that you address. We do have these small 
business programs, the so-called SBIR, the Small Business 
Innovation Research Program, and the Small Business Tech 
Transfer Program, which dedicate funds to facilitating tech 
transfer out of the National Labs into small businesses, 
specifically.
    We also have broader technology transfer programs that have 
sought--we had actually brought in somebody for a number of 
years to help us come up with ways to reduce the barriers to 
the sharing of intellectual property that is generated as, 
really, a national asset. That information in the right kind of 
circumstances, while it's of course non-classified and so 
forth, ought to be made available to promote the prosperity of 
the American people.
    And a number of innovations have been achieved to try to 
facilitate contracting arrangements to provide for the 
appropriate protection of intellectual property and the sharing 
of that property when we can, from the Federal Government.
    And I do believe that this is going to be an important part 
of the National Labs story as they continue into the future, 
supporting the stockpile on the one hand, but also supporting 
the innovations and the science that we need across a broad 
variety of platforms, commercially, and in fact there are other 
national security applications, as you well know.
    And so we are very committed to continuing a reform effort 
that has begun. We're not done with it. We're going to keep 
making sure we do what we can to reduce--really, it's more 
bureaucratic, frankly, and legal kind of barriers that can 
sometimes make it difficult to share the intellectual property 
and have the appropriate business arrangements to protect 
people's investments.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Udall. Well, we would like to do everything we can 
to help you break through those bureaucratic barriers, because 
I think the Nation could benefit enormously from this in terms 
of jobs, and it would really boost the private sector.
    So, thank you very much, and thank you, Madam Chair, for 
letting me ask that----
    Senator Feinstein. And we thank you.
    [The following questions were submitted to the Department, 
but the questions were not answered by press time.]
              Questions Submitted by Senator Patty Murray
                        environmental management
    Question. Acting Secretary Poneman, as you know the Hanford site is 
home to our Nation's most complex and contaminated nuclear waste. The 
Office of River Protection is responsible for 53 million gallons of 
liquid waste stored in 177 underground tanks, many of which have leaked 
during their lifetime. We learned over 9 months ago that the first 
double shelled tank has leaked into its annulus, and nearly 6 months 
ago that as many as six single shelled tanks may currently be leaking.
    We know that the Waste Treatment Plant (WTP) faces many challenges, 
including complex technical issues at Pretreatment. DOE (Department of 
Energy) has known about these challenges for years and is well over a 
year into an effort, led by former Secretary Chu, to quantify those 
issues and develop a plan to resolve them.
    I find it disturbing, to say the least, that the Department has yet 
to inform Congress, and the public, exactly what is the plan to move 
forward with resolving the WTP issues. Further, I have been asking for 
a comprehensive plan that will address how to get WTP back on track and 
moving toward completion, and how DOE will deal with the both the 
double shell and single shell tank leaks.
    We know that many of the tanks are well beyond their planned 
lifespan, making them even more vulnerable. We know that the permanent 
solution for treating the majority of this waste is the WTP. What we 
don't know is how DOE plans make this happen.
    When can we expect to see this long-awaited, comprehensive plan 
that I, along with many of my Federal and State colleagues, have been 
asking for?
    Question. As you know, DOE is legally obligated to complete the 
cleanup work of both the Richland Operations Office (RL) and the Office 
of River Protection (ORP) at the Hanford Site in Washington State in 
the timelines agreed to under the Tri Party Agreement and Consent 
Decree agreement. I have been crystal clear in my conversations with 
you and staff within the Environmental Management program that I expect 
DOE to meet its legal obligations at both RL and ORP.
    RL has critical cleanup work remaining along the Columbia River, at 
the Plutonium Finishing Plant, and implementing groundwater remedies. 
Once those priorities are complete, RL must then turn its resources 
toward tackling the remaining cleanup on the Central Plateau. A 
strategy that takes funds from RL to pay for cleanup at other sites is 
simply unacceptable.
    What is your plan to ensure that RL receives the funding needed to 
meet its legal obligations under the Tri Party Agreement?
    Question. It is my understanding that the performance of the River 
Corridor contractor, Washington Closure Hanford, has exceeded 
expectations in terms of cost and schedule as it cleans up the land 
along the Columbia River. This work is now nearly 90 percent complete, 
all regulatory milestones have been completed on time or ahead of 
schedule, and because of cost efficiencies more than $315 million has 
been saved and reinvested back into doing more work scope.
    With the discovery of much deeper contamination at some waste 
sites, including exceedingly high radiation underneath a key facility 
in the 300 Area, and funding constraints the last several years, some 
scope of this contract will now extend beyond the 2015 timeframe of the 
contract. It seems to me to be in the best interest of DOE--and the 
taxpayers--to continue with this contract to finish with this scope of 
work to completion.
    Can you please confirm DOE's intention to do so and give a timeline 
for when this contract extension would be executed so that the workers 
and the community can be assured of continuity?
    Question. The Department of Energy is facing a number of nuclear 
waste cleanup challenges, and we must ensure that we have the technical 
understanding, scientific approaches, and tools we need to sufficiently 
address them. These challenges span the Waste Treatment Plant (WTP), 
leaking tanks and subsurface contamination impacting the vadose zone at 
Hanford. Under the previous Secretary, DOE re-engaged the national 
laboratories (in their role as federally funded research and 
development centers) in these challenges, giving them an important role 
in developing the technical understanding needed for the success of 
numerous projects.
    Please elaborate on how the Department's budget proposal will 
continue these efforts, and enable the national laboratories--
especially PNNL--to participate in devising technically-grounded 
strategies for the EM mission.
                    bonneville power administration
    Acting Secretary Poneman, I'm sure you are aware of the so-called 
``Chu Memo,'' dated March 16th 2012 regarding the Power Marketing 
Administration. You may know that DOE released this memo 2 days after 
last year's budget hearing--when then-Secretary Chu looked me in the 
eye and assured me that I would be consulted if anything regarding the 
Bonneville Power Administration (BPA) was coming from the 
administration.
    Well, I was not consulted at all about this memo. And it led to 
numerous communications between the Northwest delegation and DOE. I was 
not happy then, and I remain unconvinced that this is a necessary 
endeavor--particularly with regard to BPA. BPA is not only meeting the 
goals set out in the ``Chu memo,'' but is exceeding them. Further, as 
you know, the tradition in our region--and amongst PMAs generally--is a 
bottom up, grassroots approach. That approach has been working for 
decades and I, along with the Northwest delegation, see no reason to 
change it.
    Please update me on the Department's plans, if any, for the ``Chu 
memo.''
                         office of electricity
    Question. I was encouraged to see the emphasis in the Department's 
budget proposal on innovative concepts associated with the integration 
of building systems and grid operations. Such an initiative holds 
particular promise for near-term benefits, given the estimated $300 
billion in annual expenditures associated with electricity consumption 
in U.S. residential and commercial buildings. In fact, those buildings 
account for 73 percent of total electricity consumption today, and are 
projected to account for 80 percent of load growth thru 2040.
    In the Pacific Northwest, we have a long history of bringing 
together a diverse ecosystem of public and private stakeholders to 
pioneer some of these advanced concepts, spanning the Nation's first 
multi-year, real-time metering and energy data collection program for 
buildings some 30 years ago (a joint effort between BPA and DOE 
national labs), to the hallmark Olympic Peninsula Smart Grid 
Demonstration Project, which this Subcommittee initially funded, to the 
Nation's largest smart grid regional demonstration project, currently 
underway across five Northwest States.
    If DOE's buildings integration initiative is funded, please 
describe in more detail the Department's plans to leverage the 
participation of R&D institutions in partnership with a relevant cross-
section of industry, required to build on this foundation and advance 
the transactive energy management concepts that hold promise to 
substantially accelerate buildings efficiency efforts.
    Question. I understand that DOE supports energy storage development 
through the Office of Electricity and Energy Reliability (OE), ARPA-e 
and the recently launched Office of Science Energy Storage Hub. 
However, given the importance that grid-scale energy storage will have 
in a clean energy future, it will be vital to ensure continued 
investment in development of cost-effective grid storage technologies.
    Given the technical challenges, it is clear DOE should have a 
leadership role in expanding efforts to both develop such technologies 
and to facilitate their deployment, field testing and evaluation. 
Within this context, I am perplexed as to why the Department would 
propose to reduce OE's energy storage budget.
    What is the Department's plan to continue and ultimately accelerate 
the progress currently being made in the field of grid-scale energy 
storage, which is necessary to provide additional operational 
flexibility and ease challenges associated with integrating a variety 
of resources including demand response, distributed and renewable power 
generation?
    Question. Please describe in additional detail the Department's 
vision and projected outcomes associated with the proposed Electricity 
Systems Innovation Hub. How would such a hub leverage and accelerate--
rather than supplant--existing high-value OE program activities, 
particularly energy storage and smart grid R&D?
                    bonneville power administration
    Question. Acting Secretary Poneman, I'm sure you are aware of the 
so-called ``Chu Memo,'' dated March 16th 2012 regarding the Power 
Marketing Administration. You may know that DOE released this memo 2 
days after last year's budget hearing--when then-Secretary Chu looked 
me in the eye and assured me that I would be consulted if anything 
regarding the Bonneville Power Administration (BPA) was coming from the 
administration.
    Well, I was not consulted at all about this memo. And it led to 
numerous communications between the Northwest delegation and DOE. I was 
not happy then, and I remain unconvinced that this is a necessary 
endeavor--particularly with regard to BPA. BPA is not only meeting the 
goals set out in the ``Chu memo,'' but is exceeding them. Further, as 
you know, the tradition in our region--and amongst PMAs generally--is a 
bottom up, grassroots approach. That approach has been working for 
decades and I, along with the Northwest delegation, see no reason to 
change it.
    Please update me on the Department's plans, if any, for the ``Chu 
memo.''
                           office of science
    Question. National scientific user facilities like the 
Environmental Molecular Sciences Laboratory and Atmospheric Radiation 
Measurement Facility located at the Pacific Northwest National 
Laboratory in Washington State play a central role in the U.S. research 
ecosystem by providing thousands of scientists access to unique 
instruments, expertise, and facilities. As State and Federal budgets 
endure ongoing downward pressure in coming years, the importance of 
user facilities will grow since they are shared resources available to 
the entire scientific community.
    How does this budget request ensure that scientific user facilities 
will have the resources they need to serve the scientific community and 
maintain U.S. global leadership in science and technology innovation?
    Question. DOE's Biological and Environmental Research (BER) Program 
supports critical and unique climate science capabilities, including 
the Atmospheric Radiation Measurement Facility and programs in Earth 
system modeling and integrated assessment. These programs are rapidly 
advancing our understanding of the climate system and climate change 
impacts. There has been scrutiny in Congress of BER and other 
government agencies that sponsor climate science, suggesting that their 
respective programs may be highly duplicative of one another.
    How does DOE's climate science research differ from that sponsored 
by NOAA, NSF or other agencies? How is climate science related to DOE's 
mission?
                        nuclear nonproliferation
    Question. Acting Secretary Poneman, President Obama has reiterated 
on a number of occasions the importance of combatting the nuclear 
threat with non-proliferation activities being a vital element. 
However, the fiscal year 2014 budget request for NNSA reflects a 
declining budget for the Defense Nuclear Non-Proliferation account in 
favor of increases for the Weapons Activities account. I understand the 
administration is also pushing for a ``OneNNSA'' governance model.
    I am concerned that with our budget difficulties we will continue 
to see declining budgets for Defense Nuclear Non-Proliferation 
activities in favor of Weapons Activities. What is the Department's 
plan to ensure that important non-proliferation activities are 
continued?
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. The Department of Energy's fiscal year 2014 budget 
request includes a $74 million reduction in funding for domestic fusion 
research conducted through the Office of Fusion Energy Sciences. 
Specifically, this funding supports our Nation's research and 
development of fusion science, including work conducted at the 
Princeton Plasma Physics Laboratory (PPPL), DOE's national lab for 
fusion research. The fiscal year 2014 budget request includes a $7 
million funding cut for PPPL, or approximately 10 percent of the 
funding PPPL receives from the Office of Science. PPPL estimates that 
this cut would result in staff reductions of 40-50 people as well as 
delays to important ongoing research.
  --What effect will these funding cuts have on research conducted at 
        PPPL, such as plasma theory and simulation, general plasma 
        science experiments, off-site tokamak collaborations, and 
        support for graduate student research?
  --How will these budget cuts, including the resulting staff layoffs, 
        affect PPPL's ability to maintain U.S. global leadership in 
        nuclear fusion science?
    Question. The International Thermonuclear Experimental Reactor 
(ITER) is an international nuclear fusion research project, which is 
currently building the world's largest experimental tokamak nuclear 
fusion reactor in France. The U.S. is a partner in the project, along 
with the European Union, China, India, Japan, the Republic of Korea, 
and the Russian Federation.
    Under the terms of ITER, the U.S. has agreed to contribute $225 
million per year to the project through fiscal year 2020. 
Unfortunately, in both the fiscal year 2013 and the fiscal year 2014 
budget request, DOE's Office of Science has proposed reducing funding 
for domestic fusion research in order to satisfy its obligations under 
ITER. This is a disturbing precedent, which could erode U.S. global 
leadership on fusion science.
  --What is DOE's long-term approach to satisfy the U.S.'s obligation 
        to ITER without undermining funding for domestic fusion 
        research?
  --Will DOE commit to establishing a budget plan that will satisfy the 
        U.S. ITER obligations through fiscal year 2020, without 
        reducing funding for domestic fusion research?
    Question. In 2011, President Obama announced a goal to reduce U.S. 
oil imports by one-third by 2025. Meeting this goal would protect 
American consumers from volatile oil prices, reduce heat-trapping 
carbon pollution, and enhance U.S. energy security. The Administration 
has implemented a number of policies to achieve this goal, including 
historic fuel efficiency and tailpipe pollution standards, investments 
in public transportation, improved energy efficiency, and increased 
domestic oil and gas production.
    These policies have succeeded in reducing U.S. oil imports, which 
fell to 40 percent of total oil consumption last year--a decline from 
peak import levels of 60 percent in 2005. The Energy Information 
Administration (EIA) projects net oil imports will continue to decline 
to 34 percent in 2019.
  --Based on DOE's projections, is the U.S. on the path to achieving 
        the President's goal?
  --What factors could undermine the U.S.'s ability to achieve the 
        President's goal?
  --What elements of DOE's fiscal year 2014 budget request are critical 
        to achieving the President's goal?
  --How is DOE prioritizing its investments in research and development 
        to help commercialize oil-saving technologies?
  --What steps is DOE taking to evaluate opportunities, such as fuel 
        efficient technology and low carbon fuels, to reduce oil 
        consumption from aviation?
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. After the possible discovery of the Higgs Boson at the 
Large Hadron Collider in Geneva, the international High Energy Physic 
community has turned its focus to exploring the `Intensity Frontier' 
through the Long Baseline Neutrino Experiment, housed at Fermi National 
Accelerator Laboratory.
    Despite the fact that the Long Baseline Neutrino Experiment is top 
priority for the U.S. and international particle physics community, as 
stated in previous `Snowmass' and `P5' meetings, funding for this 
initiative was by cut by almost $20 million in the President's Budget. 
This reduction in funding would decimate the project and only further 
encourages our Nation's best scientists and research facilities to 
leave the U.S. for European facilities, crippling our future in 
particle physics.
    Given this reduced commitment to the particle physics work at Fermi 
National Accelerator Laboratory, how does the Department plan to ensure 
a robust future for U.S. leadership in high energy physics and the Long 
Baseline Neutrino Experiment?
    Question. High-performance computing is a key capability of 
America's national laboratories. The Leadership Computing Facility at 
Argonne National Laboratory houses one the world's fastest 
supercomputers and provides world-class computational capabilities. 
This enables breakthrough scientific research in fuel efficiencies, 
aerodynamics, drug discovery, nuclear energy, and climate change.
    Funding for the Leadership Computing Facilities, like the one at 
Argonne, is critical for continuing our path towards exascale 
computers, which would be 1,000 times more powerful than today's best 
computers. In the past 2 years we have seen significant investments by 
China, Japan, and the European Union in their computing capabilities.
    Can you describe how the DOE will invest to regain and maintain 
U.S. leadership in supercomputing in the coming years?
    Question. With coal providing 50 percent of U.S. electricity 
generation and close to 80 percent of the electricity in China, it 
seems we can't fight climate change without cutting greenhouse gas 
emissions from coal.
    However, the President's Budget contains drastic cuts to DOE's 
carbon storage research programs for coal. These cuts could jeopardize 
our country's ability to use an abundant, domestic fuel source while 
still addressing our concerns about a changing climate.
    Given that the Energy Information Administration predicts that coal 
will account of at least 30 percent of U.S. electricity generation 
until 2040, how does DOE plan to support the research, development, and 
commercialization activities necessary to ensure that fossil fuel use 
can be done in an environmentally conscious manner?
    Question. FutureGen 2.0, a project to develop a near-zero emission 
coal-fired power plant while reducing greenhouse gas emissions and 
generating tremendous economic opportunity at the same time, has just 
entered Phase II of its planning process and signed a cooperative 
agreement with DOE.
    How does FutureGen 2.0 fit into the larger strategy of the DOE's 
Office of Fossil Energy?
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
    Question. Acting Secretary Poneman, one of the most promising 
renewable energy technologies in the country is deepwater offshore 
wind, which has the potential to position the U.S. as a leader in the 
field of clean energy development. I am very pleased the Department 
awarded $28 million for the first phase of seven offshore wind advanced 
demonstration projects. My understanding is that these seven projects 
are all very meritorious and have been selected after a highly 
competitive process involving strict independent technical and business 
reviews.
    To date only modest progress has been made in harnessing the 
potential of offshore wind at the time when Europe has already built 
dozens of offshore wind projects with an installed capacity of nearly 
5,000 megawatts. The UK is well on its way to producing nearly one-
quarter of its electricity from offshore wind by 2020. Advanced energy 
technology is far too often produced in foreign countries, and I am 
determined to see the U.S. as the global leader in deepwater offshore 
wind.
    I am very pleased that the Administration's budget request for 
fiscal year 2014 shows a commitment to position the U.S. to start 
competing in the offshore wind technology field. Early next year, DOE 
is scheduled to further down-select to three offshore wind advanced 
demonstration projects. Considering that Europe has already nearly 
5,000 megawatts of installed offshore wind projects, I am hopeful that 
the down-select can fund more than three of the seven selected 
demonstration projects.
    Can the Administration find in its fiscal year 2014 budget 
sufficient funds to down-select at least five of the seven projects, 
which I believe will help move us firmly down a path toward 
establishing the United States as a leader in harnessing the potential 
of offshore wind? And just as important, will the Administration make a 
commitment to emphasize US-developed technologies that have the 
potential to strengthen our technological lead and create domestic 
jobs?
    And finally, it is absolutely critical for the United States 
Government to show a long-term commitment--beyond the next fiscal 
year--to developing offshore wind. Will you commit, on behalf of the 
Administration, to make it a priority to fund as many projects as 
possible into fiscal year 2015 and beyond, as I believe that, without 
such a commitment, we will fail to capitalize on what is a significant 
and important down payment on an essential element in our efforts 
towards energy independence?
    Question. Building on my previous question, the United States has 
nearly 4,000 GW of offshore wind capacity within 50 miles, enough to 
power the U.S. four times over. Approximately two-thirds of this 
capacity is in deep water.
    In order to foster the development of ocean energy resources, other 
countries such as the United Kingdom, Canada, Germany, and Portugal 
have established test sites for ocean energy. They have funded 
environmental-permitting studies and provided electrical 
infrastructure, including undersea cabling and grid interconnection, 
for these test sites. Private industry, working with research 
institutions, has then used these ``ready'' sites to build and test 
advanced offshore wind turbines and other ocean energy harvesting 
devices, spurring further commercial developments.
    Considering that the Advanced Technology Demonstration projects are 
currently slated to each test one proprietary basic technology family, 
their ability to spur innovation could be multiplied many-fold if we 
can build on this investment.
    What role do you see for DOE to develop plans similar to those in 
other countries to establish national offshore wind test sites 
available for more than one private company, and that are designed to 
test multiple technologies?
    In addition, grid connectivity is a very large cost barrier for a 
small demonstration project, and can be estimated near $30-50 million 
for a project in the 25 megawatt range, nearly 10 miles from shore. 
Would it be feasible for DOE, as part of the fiscal year 2014 budget, 
to help provide the competitive funding necessary to permit and 
construct grid interconnection for one or more national test sites that 
will test multiple technologies for years to come?
    Question. Acting Secretary Darcy, recently, 40 senators, including 
me, signaled our support for restoring funding for the Weatherization 
program to $230 million, the level at which it was funded in 2008. At 
that level, it funded the weatherization of just fewer than 100,000 
homes. In the following years, it delivered more than 1,000,000 homes. 
By contrast, the Administration's 2014 Budget Request would give States 
just $157 million and projects that fewer than 25,000 homes to be 
weatherized. The entire request for Weatherization activities is 19 
percent below its level just 5 years ago.
    Why is it that the Administration seems to have shifted its policy 
priorities for energy and efficiency programs so far from our historic 
commitment to supporting energy consumers who cannot finance or pay for 
energy improvements?
    This is the first Request since the end of the Recovery Act 
infusion; it offers a stark contrast to the bi-partisan commitment to 
ensure that subsidies were targeted to those who genuinely lack the 
ability to make an investment that is certain to pay back dividends in 
the long run.
    My practical questions are about how your analysis, referred to in 
the Budget narrative, reached the conclusion that many of the smaller 
States' allocations can fund a responsible, high impact program. The 
Budget Appendix says this Request ``will support the nationwide 
delivery of services including skilled weatherization retrofit 
professionals . . . ,'' but that any less would fail to do so. Yet I 
believe that as many as eight States will have less than $1 million, 
meaning they cannot even spend $50,000 for their administrative costs 
which include meeting extensive reporting and oversight to make sure 
Weatherization works as we intend.
    Worse, in those States, the local agencies that deliver the program 
must divide up the remaining administrative allowance--again, less than 
$50,000--among them. Are you able to submit to us for the record 
details of the analysis and calculations that led the Department to 
identify this minimum amount needed for a successful Weatherization 
program?

                          SUBCOMMITTEE RECESS

    Senator Feinstein. Mr. Poneman, you're going to get off 
easy. We're going to follow up on those two points about ITER 
and exascale and put some questions in writing. But I think 
we've done it for now.
    So thank you very much, and the hearing is adjourned.
    Mr. Poneman. Thank you, Senator. Thank you, Madam Chairman.
    [Whereupon, at 3:14 p.m., Wednesday, May 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
